Proskauer Rose LLP Eleven Times Square New York, NY 10036-8299

August 13, 2020
By eFile and Federal Express
Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543

Martin J. Bienenstock
Member of the Firm
d +1.212.969.4530
f 212.969.2900
mbienenstock@proskauer.com
www.proskauer.com

Re: Andalusian Global Designated Activity Co. et al. v. Fin. Oversight & Mgmt. Bd. for
Puerto Rico et al., No. 20-126
Dear Mr. Harris:
On behalf of the Financial Oversight and Management Board for Puerto Rico (the
“Board”), as representative for the Employees Retirement System of the Government of the
Commonwealth of Puerto Rico, I am writing pursuant to Supreme Court Rule 30.4 to request a
30-day extension of time to file a response to the petition for a writ of certiorari in the abovecaptioned matter. The petition was docketed on August 6, 2020. Accordingly, the response is
currently due on September 8. The requested 30-day extension would extend the due date to
October 8, 2020. Counsel for petitioners consents to the requested extension.
The Board was established by Congress to oversee the restructuring of Puerto Rico’s
massive public debt—the largest restructuring of public debt in American history. See 48 U.S.C.
§ 101(b). At present, the Board is litigating numerous adversary proceedings and appeals within
the bankruptcy-like cases it has filed on behalf of the Commonwealth and its municipal
entities. In light of the great number of matters the Board is handling, we respectfully submit
that the requested extension is necessary to allow us to respond properly to the Petition.

Sincerely,

Martin J. Bienenstock
cc: Helgi C. Walker, Counsel of Record for Petitioner

Beijing | Boca Raton | Boston | Chicago | Hong Kong | London | Los Angeles | New Orleans | New York | Newark | Paris | São Paulo | Washington, DC

